February 2006
Report No. 06-009


FDIC’s Guidance to Institutions and
Examiners for Implementing the
Gramm-Leach-Bliley Act Title V and the
Fair and Accurate Credit Transactions
Act
                                                                                                  Report No. 06-009
                                                                                                     February 2006


                                      FDIC’s Guidance to Institutions and Examiners for
                                      Implementing the Gramm-Leach-Bliley Act Title V and the
                                      Fair and Accurate Credit Transactions Act

Background and                        Results of Audit
Purpose of Audit                      The FDIC has established rules and regulations and issued adequate guidance to
                                      institutions and examiners for implementing the GLBA Title V provisions
The privacy and security of           related to the privacy and security of consumer information. These actions are
consumer information in
                                      sufficient to address our prior recommendations. In contrast, some FACT Act
financial institutions is regulated
                                      provisions are still lacking rules and regulations.
by Title V of the Gramm-Leach-
Bliley Act of 1999 (GLBA), the
Fair and Accurate Credit              Ten FACT Act provisions require compliance by FDIC-supervised institutions
Transactions Act of 2003 (FACT        and rulemaking by the federal banking agencies, National Credit Union
Act), and the Fair Credit             Administration (NCUA), or Federal Trade Commission (FTC). The FDIC,
Reporting Act of 1968 (FCRA).         jointly or in coordination with the other federal banking agencies and NCUA,
The FACT Act made many                has completed the rulemaking process for two of the seven FACT Act
substantive amendments to the         provisions that require FDIC rulemaking. The FTC has completed rules and
FCRA and covers, for example,         regulations for the three provisions for which it has rulemaking responsibility.
identity theft, consumers’ access     The Act did not designate a lead agency for the five provisions requiring rules
to credit information, enhanced       and regulations. The FDIC must coordinate with other federal agencies to issue
consumer report accuracy, and         guidance for the five provisions, but meeting timeframes for publishing the
financial literacy. The statutes      regulations has proved to be difficult. Further, the FDIC had not issued final
prescribe financial institutions’     financial institution or examination guidance on those provisions where the FTC
responsibilities for protecting       had issued final rules and regulations and for so-called “self-executing”
consumer information and              provisions (require financial institution compliance but not rulemaking by the
sharing it with other entities.
                                      federal agencies).
The audit objective was to
determine whether the FDIC            The lack of final rules and regulations could limit the effectiveness of the FACT
provided adequate guidance to         Act and reduce assurance that institutions are taking steps to prevent identity
FDIC-supervised institutions and      theft to the extent intended by the Act. However, to some degree, the FDIC has
examiners for implementing the        mitigated that risk by issuing interim financial institution and examination
data privacy and security             guidance addressing all of the provisions that require such guidance.
provisions of the GLBA Title V
and the FACT Act. The audit
also determined whether the           Recommendations and Management Response
FDIC has implemented GLBA-
related recommendations in            We recommended that the FDIC finalize the interim examination guidance that
Office of Inspector General           addresses FACT Act provisions and develop, in coordination with the joint-
Audit Report No. 03-044, The          agency rulemaking committee, a more aggressive project management plan to
Federal Deposit Insurance             expedite the issuance of final rules and regulations for all FACT Act provisions.
Corporation’s Progress in             The FDIC concurred with the recommendations and stated that it is fully
Implementing the Gramm-               committed to, and is in the process of, developing and issuing financial
Leach-Bliley Act, Title V -
                                      institution and examination guidance. Also, as a member of the separate
Privacy Provisions, dated
                                      working groups responsible for drafting each set of rules or guidelines, the
September 26, 2003.
                                      FDIC has consistently made efforts to move the process forward and will
                                      continue to promote expedited processes during 2006. Management’s planned
To view the full report, go to        actions are responsive to the recommendations.
www.fdicig.gov/2006reports.asp
                          TABLE OF CONTENTS


BACKGROUND                                                                2

RESULTS OF AUDIT                                                          3

FINDING AND RECOMMENDATIONS                                               3

  FDIC’S PROGRESS IN IMPLEMENTING GLBA TITLE V DATA                       3
  PRIVACY AND SECURITY PROVISIONS AND FACT ACT
  PROVISIONS

       FDIC Rules and Regulations That Address GLBA Title V Provisions    4
       FDIC Guidance That Addresses GLBA Title V Provisions               5
       FDIC Rules and Regulations That Address FACT Act Provisions        6
       Joint Guidance                                                     8
       FTC Regulations Required                                           9
       Self-executing Provisions                                          9

CONCLUSION                                                               10

RECOMMENDATIONS                                                          11

CORPORATION COMMENTS AND OIG EVALUATION                                  11

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                            12

APPENDIX II: SUMMARY OF LAWS AND REGULATIONS                             16

APPENDIX III: VARIOUS FDIC ISSUANCES RELATED TO GLBA                     19
              AND THE FACT ACT

APPENDIX IV: CROSSWALK OF FACT ACT PROVISONS TO                          20
             FDIC RULES AND REGULATIONS AND RELATED
             GUIDANCE

APPENDIX V: CORPORATION COMMENTS                                         34

APPENDIX VI: MANAGEMENT RESPONSE TO                                      36
             RECOMMENDATIONS

TABLE:                                                                    7
    Status of Regulations and Guidance Issued for Fact Act Provisions
    Affecting FDIC-Supervised Institutions
Federal Deposit Insurance Corporation                                                                         Office of Audits
801 17th Street NW, Washington, DC 20434                                                         Office of Inspector General

DATE:                             February 24, 2006

MEMORANDUM TO: Sandra L. Thompson, Acting Director
               Division of Supervision and Consumer Protection




FROM:                             Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                  Assistant Inspector General for Audits

SUBJECT:                          FDIC’s Guidance to Institutions and Examiners for Implementing the
                                  Gramm-Leach-Bliley Act Title V and the Fair and Accurate Credit
                                  Transactions Act (Report No. 06-009)


This report presents the results of our audit of the FDIC’s implementation of the Gramm-Leach-
Bliley Act of 1999 (GLBA) Title V and the Fair and Accurate Credit Transactions Act of 2003
(FACT Act). The audit objective was to determine whether the FDIC’s Division of Supervision
and Consumer Protection (DSC):

¾ provided adequate guidance to FDIC-supervised institutions and examiners for implementing
  the data privacy and security provisions of the GLBA Title V and the FACT Act, and

¾ implemented the recommendations in Office of Inspector General (OIG) Audit Report
  No. 03-044, The Federal Deposit Insurance Corporation’s Progress in Implementing the
  Gramm-Leach-Bliley Act, Title V - Privacy Provisions, dated September 26, 2003.

To address our objective, we assessed the FDIC’s progress in implementing the GLBA
provisions related to the privacy and security of bank consumer1 data, and all of the FACT Act
provisions. This audit is the second in a series of audits planned to review the FDIC’s
implementation of GLBA Title V and FACT Act provisions. Subsequent audit coverage of this
area will include detailed reviews of examinations and supervisory efforts addressing the privacy
and security of consumer information. Details on our objective, scope, and methodology are in
Appendix I of this report.




1
  GLBA, Subtitle A, uses the terms “consumer” and “customer.” GLBA, Section 509(9), defines “consumer” as an
individual (or legal representative) who obtains, from a financial institution, financial products or services that are to
be used primarily for personal, family, or household purposes. The FDIC’s Rules and Regulations, Section 332.3,
implements GLBA Section 509(11) by defining “customer relationship” as a continuing relationship between a
consumer and the financial institution that provides one or more financial products or services to the consumer that
are to be used primarily for personal, family, or household purposes. This report uses “consumer” unless, in the
particular context, “customer” would be more appropriate.
BACKGROUND

Since the early 1970s, the FDIC has recognized the significant risk associated with the potential
for data security weaknesses to disrupt bank operations, harm consumers, and undermine
confidence in the nation’s financial system. The failure or misuse of technology can impact the
safety and soundness of an institution with sudden and severe losses or compromise the security
of consumer financial information. Elements of risk in this area include a potential impact on the
deposit insurance funds if continued breaches in data security are not controlled. This issue has
received increased public and congressional attention.

The security and privacy of consumer information in financial institutions is regulated by the
GLBA, Fair Credit Reporting Act of 1968 (FCRA), and FACT Act, which amended the FCRA.
These statutes describe financial institutions’ responsibilities for protecting consumer
information and sharing it with other entities. The FDIC and other regulatory agencies establish
regulations to implement the statutes and monitor compliance through routine supervisory
programs, including on-site examinations of financial institutions. DSC reviews financial
institutions’ compliance with: (1) GLBA privacy notice requirements through compliance
examinations and (2) GLBA and Fact Act provisions on safeguarding consumer information
through information technology (IT) examinations. Supervisory actions for regulatory
noncompliance range from informal agreements and enforcement actions to civil money
penalties.

The GLBA was enacted on November 12, 1999. Title V of the GLBA contains data privacy and
security provisions that prohibit financial institutions from sharing nonpublic, personally
identifiable consumer information with nonaffiliated third parties2 and require institutions to
provide notice of their privacy policies to customers and to safeguard the security and
confidentiality of consumer information. Finally, Title V delegates rulemaking and enforcement
authority to the federal banking and securities regulators, the Federal Trade Commission (FTC),
and state insurance regulators.3

The FCRA establishes standards for collecting and disseminating data by consumer reporting
agencies (CRAs).4 The primary purpose of the FCRA is to regulate the nationwide consumer
reporting system to help ensure the accuracy and security of consumer reports.5

2
  The GLBA requires financial institutions to provide notices describing the type of information they intend to share
with third parties and how customers may "opt out," or say "no," to information sharing under certain circumstances.
3
  According to section 3 of the Federal Deposit Insurance Act, “[t]he term ‘Federal banking agency’ means the
Office of the Comptroller of the Currency, the Office of Thrift Supervision, the Board of Governors of the Federal
Reserve System, or the Federal Deposit Insurance Corporation.”
4
  FCRA, Section 603, defines “consumer” as “an individual.” Also, FCRA Section 603 defines the term “consumer
reporting agency” as “any person which, for monetary fees, dues, or on a cooperative nonprofit basis, regularly
engages in whole or in part in the practice of assembling or evaluating consumer credit information or other
information on consumers for the purpose of furnishing consumer reports to third parties, and which uses any means
or facility of interstate commerce for the purpose of preparing or furnishing consumer reports.”
5
  FCRA, Section 603, defines "consumer report" as any written, oral, or other communication of any information by
a consumer reporting agency bearing on a consumer's creditworthiness, credit standing, credit capacity, character,
general reputation, personal characteristics, or mode of living, which is used or expected to be used or collected in
whole or in part for the purpose of serving as a factor in establishing the consumer's eligibility for: (1) credit or
insurance to be used primarily for personal, family, or household purposes; (2) employment purposes; or (3) any
other purpose authorized under section 604.


                                                         2
The FACT Act was signed into law on December 4, 2003. One of its primary purposes was to
amend the FCRA to make several expiring federal preemptions permanent, in response to
industry concern that state or local laws might interfere with the continuity of the credit reporting
system. In addition to the federal preemption, the FACT Act also made many substantive
amendments to the FCRA to address issues raised by industry and consumer advocates. In
response to industry concerns, the FACT Act preserves and expands uniform national standards
for the accuracy and integrity of consumer report information and access to such information. In
response to concerns raised by consumer advocates, the FACT Act contains many new
provisions to combat identity theft, protect privacy, and improve consumer access to, and the
overall accuracy of, consumer reports. The FACT Act also restricts the use and disclosure of
sensitive medical information. To bolster efforts to improve financial literacy among consumers,
Title V of the Act (entitled, Financial Literacy and Education Improvement Act) creates a new
Financial Literacy and Education Commission, of which the FDIC is a member, empowered to
take appropriate actions to improve financial literacy and education programs, grants, and
materials of the federal government.

Appendix II contains additional information on the requirements of the GLBA, FCRA, and
FACT Act.


RESULTS OF AUDIT

The FDIC has established rules and regulations and issued adequate guidance to institutions and
examiners for implementing the GLBA Title V provisions related to the privacy and security of
consumer information. In doing so, the FDIC has taken sufficient corrective action to address
prior OIG recommendations associated with the Corporation’s implementation of these
provisions. In contrast, the FDIC, jointly or in coordination with the other federal banking
agencies, National Credit Union Administration (NCUA), and FTC, has not yet issued rules and
regulations addressing some FACT Act provisions. The lack of final rules and regulations could
limit the effectiveness of the FACT Act and reduce assurance that institutions are taking steps to
prevent identity theft to the extent intended by the Act. The FDIC has mitigated that risk, to
some degree, by issuing interim financial institution and examination guidance addressing all of
the provisions that require such guidance.


FINDING AND RECOMMENDATIONS

FDIC’S PROGRESS IN IMPLEMENTING GLBA TITLE V DATA PRIVACY AND
SECURITY PROVISIONS AND FACT ACT PROVISIONS

The FDIC has established rules and regulations that appropriately address the GLBA Title V
provisions related to the privacy and security of consumer information. In addition, the
FDIC has provided adequate guidance to FDIC-supervised institutions and established
adequate examination guidance and procedures to ensure that these institutions meet GLBA
requirements. Examination guidance issued in April 2004 includes procedures that adequately
address prior OIG recommendations associated with the Corporation’s implementation of
GLBA privacy provisions.



                                                 3
Ten FACT Act provisions require compliance by FDIC-supervised institutions and rulemaking
by the federal banking agencies and NCUA or FTC. The FDIC, jointly or in coordination with
the other federal banking agencies and NCUA, has completed the rulemaking process for two of
the seven FACT Act provisions that require rulemaking by the FDIC. The FTC has completed
rules and regulations for the three provisions for which it has rulemaking responsibility. The Act
did not designate a lead agency for the five provisions still lacking rules and regulations.
Therefore, the FDIC must coordinate with other federal agencies to issue guidance for the five
provisions, but meeting timeframes for publishing the regulations has proved to be difficult.6
The lack of final rules and regulations that establish implementing requirements could limit the
effectiveness of the FACT Act provisions, thus reducing assurance that institutions are limiting
the potential for identity theft. However, the FDIC has acted to mitigate that risk by issuing
interim financial institution and examination guidance to address all of the FACT Act sections
that require such guidance.

FDIC Rules and Regulations That Address GLBA Title V Provisions

During our 2003 audit of the FDIC’s progress in implementing GLBA Title V, we determined
that the FDIC had made reasonable progress in implementing GLBA Title V Subtitle A’s
provisions.7 However, federal regulators had not yet finalized the interagency-proposed
regulations for GLBA Title V Subtitle A, Section 506, Protection of the Fair Credit Reporting
Act. According to Subtitle A, Section 506(a), the authority of the federal banking agencies to
conduct routine examinations for compliance with the FCRA was restored, and the federal
banking agencies were to jointly prescribe regulations, as necessary, for financial institutions to
carry out the purposes of FCRA. Based on the results of our current audit, we determined that
the requirements of the provision have been fulfilled.

On October 26, 2000, the FDIC issued Financial Institution Letter (FIL) 71-2000, Proposed
Regulations Implementing the Fair Credit Reporting Act. This FIL distributed the proposed rule,
Part 334, published in the Federal Register (Vol. 65, No. 204). During fieldwork for our 2003
audit, we found that banking regulators anticipated issuing a new proposed rulemaking for public
comments, addressing comments received on the October 2000 proposal. During our current
audit, we discussed the status of the proposed regulation with FDIC’s Legal Division and were
informed that Section 506 of GLBA did not require the development of regulations but that
regulations were to be prescribed “as necessary” to carry out the FCRA. According to DSC, the
underlying purpose of the proposed regulation issued in FIL-71-2000 was to provide functional,
specific requirements for the provision of an opt out notice as required by the FCRA. The
requirement to provide an opt out notice in the FCRA had existed in the statute, without
regulation, since 1996. The “as necessary” approach to Section 506 refers to whether the
agencies believed a specific instruction regarding the opt out notice was necessary. Ultimately,
DSC determined that a specific instruction was not necessary because banks would generally
follow similar guidance in the privacy regulations (FDIC Rules and Regulations Part 332) that
cover the FCRA opt out notice. According to DSC, although the GLBA and the FCRA opt out
6
  For these five provisions, the FACT Act states that the federal banking agencies, NCUA, and FTC shall either
jointly or in coordination, establish and maintain guidelines, and prescribe regulations. For provisions requiring
coordination, the FACT Act states that each agency required to prescribe regulations shall consult and coordinate
with each other so that, to the extent possible, the regulations prescribed are consistent and comparable.
7
  On September 26, 2003, the OIG issued Audit Report No. 03-044. The objective of the audit was to determine
whether the FDIC had made reasonable progress in implementing the GLBA Title V privacy provisions.


                                                          4
notice requirements are different and based in different statutory requirements, a bank’s practices
for delivering notices and honoring opt outs is almost always structured in the same way.
Therefore, although GLBA Section 506 requirements are not addressed in a specific regulation,
under the FCRA, FDIC-insured institutions are subject to the statutory requirement to provide an
opt out notice.

FDIC Guidance That Addresses GLBA Title V Provisions

During our 2003 audit of the FDIC’s progress in implementing GLBA Title V, we also
conducted an analysis of the corresponding guidance issued to FDIC-supervised banks and FDIC
examiners. At the time of our 2003 audit report, we determined that, on May 9, 2001, the FDIC
issued FIL-39-2001, Guidance on Identity Theft and Pretext Calling, as a supplement to FDIC
regulations on customer information security, issued February 1, 2001, pursuant to Section
501(b) of the GLBA.8 In our 2003 audit report, we stated that the guidance provided steps that
financial institutions should take to safeguard customer information and reduce the risk of loss
from identity theft and pretext calling. However, we also noted that DSC’s examination
procedures did not include steps to specifically assess how banks protect customer information
from unauthorized disclosure through identity theft and pretext calling.

On April 16, 2004, DSC’s Technology Supervision Branch issued Regional Directors
Memorandum (RDM) 2004-014, Information Technology General Work Program Revision.
During our current audit, we reviewed the RDM and found that it provides examiners adequate
guidance for assessing how banks protect customer information from unauthorized disclosure to
reduce the risks of loss related to identity theft and pretext calling.

In 2005, DSC issued the following additional interpretations and guidance related to establishing
standards for safeguarding customer information.

¾ FIL-27-2005, Final Guidance on Response Programs - Guidance on Response Programs for
  Unauthorized Access to Consumer Information and Consumer Notice, dated April 1, 2005,
  requires financial institutions to develop and implement a response program designed to
  address incidents of unauthorized access to sensitive consumer information maintained by
  the financial institution or its service provider.

¾ RDM 2005-012, Examination Procedures to Evaluate Response Programs for Unauthorized
  Access to Consumer Information, dated April 5, 2005, distributes examination procedures to
  determine compliance with the Interagency Guidance on Response Programs for
  Unauthorized Access to Consumer Information and Consumer Notice.

8
  Section 501(b), Disclosure of Nonpublic Personal Information, requires each agency to establish appropriate
standards for the financial institutions under their jurisdiction relating to administrative, technical, and physical
safeguards. Specifically, the standards are to (1) ensure the security and confidentiality of customer records and
information; (2) protect against any anticipated threats or hazards to the security or integrity of such records; and
(3) protect against unauthorized access to or use of such records or information that could result in substantial harm
or inconvenience to any customer. On February 1, 2001, the federal banking regulators issued a final rule under
FDIC Rules and Regulations Part 364, Standards for Safety and Soundness, Appendix B, Interagency Guidelines
Establishing Standards for Safeguarding Customer Information. On August 28, 2001, the FDIC issued Regional
Directors Memorandum (RDM) 2001-032, Examination Procedures to Evaluate Customer Information Safeguards,
to distribute examination procedures to determine compliance with Appendix B to Part 364.


                                                          5
¾ FIL-64-2005, Pharming Guidance on How Financial Institutions Can Protect Against
  Pharming Attacks, dated July 18, 2005, describes the practice of "pharming," how it occurs,
  and potential preventive approaches. The guidance states that financial institutions offering
  Internet banking should assess potential threats posed by pharming attacks and protect
  Internet domain names, which – if compromised – can heighten risks to the institutions.

¾ FIL-66-2005, Spyware Guidance on Mitigating Risks From Spyware, dated July 22, 2005,
  recommends an effective spyware prevention and detection program based on an institution's
  risk profile. The guidance and the attached informational supplement discuss the risks
  associated with spyware from both a bank’s and consumer’s perspective and provide
  recommendations to mitigate these risks.

¾ FIL-69-2005, Voice Over Internet Protocol Guidance on the Security Risks of VoIP, dated
  July 27, 2005, addresses the security risks associated with voice over Internet protocol
  (VoIP).9 VoIP is susceptible to the same security risks as data networks if security policies
  and configurations are inadequate. To address section 501(b) of GLBA, the guidance states
  that associated risks should be evaluated as part of a financial institution's periodic risk
  assessment and discussed in status reports submitted to the institution’s board of directors.
  The guidance provides financial institutions with a detailed summary of the risks associated
  with VoIP and the available sources to develop VoIP security policies and procedures and
  recommends best practices. In addition, FIL-69-2005 states that bank management should
  perform a comprehensive risk assessment to ensure the confidentiality, integrity, and
  availability of voice communications using VoIP technology.

During our current audit, we reviewed DSC’s guidance and found that it provided adequate
procedures for both institutions and examiners in ensuring compliance with GLBA, Section 501.
In addition, since September 26, 2003, the FDIC has issued several policy documents to banks
and examiners that address data privacy or data security. Many of the documents are advisory in
nature or for informational purposes and are not required by GLBA. Appendix III provides a list
of the policy documents developed by DSC for both FDIC-supervised institutions and FDIC
examiners.

FDIC Rules and Regulations That Address FACT Act Provisions

The FACT Act contains 10 provisions that require compliance by FDIC-supervised institutions
and rulemaking by the federal banking agencies and the NCUA or FTC. The FDIC, jointly or in
coordination with other federal banking agencies and the NCUA, has completed the rulemaking
process for two of the seven FACT Act provisions that require FDIC rulemaking. The FTC has
completed rules and regulations for the three provisions for which it has rulemaking
responsibility. The Act did not designate a lead agency for the five provisions still lacking rules
and regulations, and the FDIC must coordinate with other federal agencies to issue the guidance.
The table on the next page summarizes the status of the regulations and guidance related to
FACT Act provisions affecting FDIC-supervised institutions. Appendix IV describes each title
and section of the FACT Act.


9
    VoIP refers to the delivery of traditional telephone voice communications over the Internet.


                                                            6
 Status of Regulations and Guidance Issued for FACT Act Provisions Affecting
 FDIC-Supervised Institutions
                                                Status of FDIC Financial          Status of FDIC
 FACT        Status of Rules and Regulations
                                                  Institution Guidance          Examiner Guidance
   Act
 Section    Nothing                           Nothing                       Nothing
                       Proposed      Final                Interim   Final             Interim    Final
             Issued                            Issued                        Issued
    Regulations Required To Be Issued Jointly by the FDIC and Five Other Federal Banking Agencies
114(e)          √                                            √                            √
214(a)                     √                                 √                            √
216                                 √ FDIC                             √                           √
312(a)         √ a                                           √                            √
312(c)         √ a                                           √                            √
315             √                                            √                            √
411                                 √ FDIC                             √                  √
                  Regulations Required To Be Issued by the Federal Trade Commission
151(a)                              √ FTC                    √                            √
153                                 √ FTC                    √                            √
213                                 √ FTC                    √                            √
                                                                             b
                         Self-Executing Provisions Not Requiring Regulations
112                                                          √                            √
152                                                          √                            √
154(a)                                                       √                            √
212                                                          √                            √

 Source: FDIC Legal Division’s FACT Act Status Report and various FILs and RDMs.
 a
   On February 10, 2006, the FDIC Board of Directors approved the Interagency Advance Notice of Proposed
   Rulemaking Regarding the Accuracy and Integrity of Information Furnished to Consumer Reporting Agencies
   under the Fair and Accurate Credit Transactions Act of 2003.
 b
   Self-executing provisions are FACT Act provisions that do not require rulemaking by the federal banking
   agencies but require financial institution compliance.

 As of the time of our audit fieldwork, the FDIC, in coordination with the other regulators, had
 issued final rules in reference to two FACT Act provisions:

     ¾ Section 216, Disposal of Consumer Report Information and Records, and
     ¾ Section 411, Protection of Medical Information in the Financial System.

 In addition, the FTC has issued final rules in reference to three FACT Act provisions for which
 the FDIC does not have explicit authority to publish rules but which require FDIC-supervised
 institutions’ compliance:

     ¾ Section 151(a), Summary of Rights of Identity Theft Victims;
     ¾ Section 153, Coordination of Identity Theft Complaint Investigations; and
     ¾ Section 213, Enhanced Disclosure of the Means Available to Opt Out of Prescreened
       Lists.

 The rulemaking process either has not started or has not been completed for the remaining five
 provisions, which require that the federal banking agencies coordinate to issue regulations.
 According to sections 114(e), 312(c), and 315 of the FACT Act, the federal banking regulators,
 NCUA, and FTC shall jointly prescribe regulations with respect to the entities that are subject to



                                                       7
their respective enforcement authority. For other rulemaking sections (214(a) and 312(a)) the
law states that the federal banking agencies, NCUA, and FTC, in coordination, shall prescribe
regulations with respect to the entities that are subject to their respective enforcement authority.
The FDIC’s Legal Division informed us that the agencies had agreed on timelines to ensure the
timely publication of final rules when the FACT Act was enacted but found it difficult to meet
the timelines. DSC’s efforts to issue regulations related to the FACT Act are, to a great degree,
dependent upon other entities and DSC’s participation in joint rulemaking committees.

Joint Guidance

As discussed earlier, the FDIC has issued final rules related to two FACT Act provisions. DSC
has issued final guidance to institutions and examiners, addressing one of those provisions,
Section 216, Disposal of Consumer Report Information and Records. We found that the
guidance provides adequate procedures related to complying with requirements of the disposal of
consumer information. For the other provision, we also found that DSC has issued final
guidance (in the form of a FIL transmitting the regulation) to institutions, but not examiners,
addressing Section 411, Protection of Medical Information in the Financial System. We found
that the guidance provides FDIC-supervised institutions adequate procedures related to
complying with requirements on the use of medical information in determining credit eligibility.

On December 28, 2004, the FDIC issued final rules to implement FACT Act Section 216,
Disposal of Consumer Report Information and Records. To address the regulation, the FDIC
issued FIL-07-2005 entitled, Fair and Accurate Credit Transactions Act of 2003 Guidelines
Requiring the Proper Disposal of Consumer Information, dated February 2, 2005. According to
the FIL, Section 216 is designed to protect consumers against the risks associated with identity
theft and other types of fraud and requires a financial institution that maintains or otherwise
possesses consumer information derived from consumer reports to properly dispose of it. Under
the final rule, the agencies amended their Guidelines Establishing Standards for Safeguarding
Customer Information (renamed Interagency Guidelines Establishing Information Security
Standards).

We reviewed the revised guidance and found it to be adequate to address FACT Act Section 216
in that the guidelines require each financial institution (1) to develop and maintain, as part of its
information security program, appropriate controls designed to ensure that it properly disposes of
“consumer information” derived from a consumer report in a manner consistent with the
financial institution’s existing obligation under the guidelines and (2) to assess the risks to the
institution’s consumer information as well as customer information by evaluating security
measures to control the risks.

On November 22, 2005, the FDIC issued a final rule (12 Code of Federal Regulations (C.F.R.)
Part 334) to address FACT Act Section 411, Protection of Medical Information in the Financial
System. To address the regulation, the FDIC issued FIL-121-2005 entitled, Fair Credit
Reporting – Medical Information Final Rules, dated December 8, 2005. We reviewed the
guidance and found it to be adequate to address FACT Act Section 411 in that the guidelines
prohibit institutions from obtaining and using medical information in determining credit
eligibility, except as permitted by the financial institution regulatory agencies. In addition, the
FIL identifies exceptions that will allow institutions to obtain and use medical information in
appropriate circumstances. However, DSC has not yet issued final examination guidance related


                                                  8
to this provision of the FACT Act. The effective date for FDIC-supervised institutions to
comply with the rule is April 1, 2006. According to DSC, this area will be addressed in an
amendment to the FCRA examination procedures before the April 1, 2006, effective date.

FTC Regulations Required

During this audit, we identified three sections of the FACT Act for which the FTC was given
authority to publish rules that require compliance by FDIC-supervised institutions. The federal
banking agencies and the NCUA were consulted by the FTC in issuing these final rules.

     ¾ Section 151(a) of the FACT Act requires the development of a Summary of Rights of
       Identity Theft Victims. According to DSC, FDIC-supervised banks will use the model
       summary of rights notice when necessary. In this area, a CRA must provide the notice to
       consumers who have alerted the CRA that they may be a victim of identity theft.
       According to DSC, currently, none of the FDIC-supervised institutions are considered to
       be CRAs. Section 151 also addresses providing information about transactions or
       accounts that may be the result of identity theft to victims and/or law enforcement. There
       is no requirement for the FDIC to promulgate regulations for Section 151, and the FDIC
       was not given any explicit authority to do so. DSC provided guidance to examiners in
       the Interim Compliance Examiner Job-Aid attached to RDM 2004-055, Fair and
       Accurate Credit Transactions Act of 2003 – Effective Dates, dated November 29, 2004.

     ¾ Section 153 of the FACT Act requires nationwide CRAs to develop and maintain
       procedures to inform one another when an identity theft complaint is received.
       According to DSC, the FDIC currently does not supervise any financial institutions that
       are considered to be nationwide CRAs; therefore, there is no need for final guidance for
       this section.

     ¾ Section 213 of the FACT Act requires FDIC-supervised institutions to provide pre-
       screened consumer report notices and to use the FTC’s form for this purpose. The
       specific requirements became effective for financial institutions on August 1, 2005.
       According to DSC, at that time, the FDIC was leading a working group under the Federal
       Financial Institutions Examination Council (FFIEC)10 Consumer Compliance Task Force
       to re-write all of the FCRA examination procedures to include the FACT Act
       amendments. The FTC’s rules to implement Section 213 were part of this project. The
       procedures were approved by the FFIEC in September 2005, and DSC plans to
       communicate them to all FDIC offices using an RDM.

Self-executing Provisions

During this audit, we noted that the FACT Act includes some provisions that do not require
rulemaking by the federal banking agencies but do require financial institution compliance:


10
   The FFIEC, established in March 1979, is a formal interagency body empowered to prescribe uniform principles,
standards, and report forms for the federal examination of financial institutions by the Board of Governors of the
Federal Reserve System (FRB), the FDIC, NCUA, Office of the Comptroller of the Currency, and Office of Thrift
Supervision and to make recommendations to promote uniformity in the supervision of financial institutions.


                                                        9
   ¾   Section 112, Fraud and Active Duty Alerts;
   ¾   Section 152, Blocking of Information Resulting from Identity Theft;
   ¾   Section 154(a)-(b), Prevention of Repollution of Consumer Reports; and
   ¾   Section 212(c), Disclosure of Credit Scores.

The FDIC informed its supervised institutions of the effective dates related to these self-
executing provisions through FIL-130-2004, Fair and Accurate Credit Transactions Act of
2003 - Effective Dates, dated December 13, 2004. According to the FIL, these provisions were
effective December 1, 2004. With regard to the provisions that do not require implementing
regulations, the FDIC expects covered entities to begin to comply by the dates contained in the
FACT Act or by the effective dates jointly set by the FTC and FRB. The FTC and FRB
published these dates in a rulemaking in February 2004. In addition, DSC issued RDM
2005-055 Fair and Accurate Credit Transactions Act of 2003 – Effective Dates, dated
November 29, 2004, to explain the effective dates for the FACT Act. RDM 2005-055 has an
attached supplement, Interim Job-Aid, which contains guidance for examiners in reviewing
institution compliance with the self-executing requirements. Also, as noted earlier, the FDIC led
a working group to re-write all of the FCRA examination procedures to include the FACT Act
amendments. The revised procedures were approved by the FFIEC in September 2005, and
copies of the procedures were provided to examiners during training sessions in all regions;
however, the official FIL and RDM are still pending.


CONCLUSION

Consumers have become increasingly concerned about the privacy of their personal information,
and adequate protection of that information is an important element of public trust and
confidence in depository financial institutions. With the rapid growth of electronic commerce,
and the increased collection of diverse pieces of consumer personal information, the potential for
use of the information in ways unwanted by consumers is a growing risk to financial institutions.
To address this risk, the Congress passed both GLBA and the FACT Act to improve data
security and expand safeguards over the confidentiality of consumer information. The
effectiveness of those laws is dependent upon regulatory agencies, including the FDIC, to issue
appropriate guidance. In that regard, the FDIC has been successful in addressing all of the
GLBA Title V provisions related to the security and privacy of consumer information and
implementing our prior recommendations in this area. However, the FDIC needs to finalize
examiner guidance related to provisions of the FACT Act that were self-executing and for which
FTC issued regulations. The Corporation also needs to work with the other federal banking
agencies to issue final rules and regulations addressing FACT Act provisions that required they
be issued jointly by the agencies. Until such time that these efforts are completed, there is less
assurance that the increased protection of consumer information intended by the two laws is, in
fact, occurring.




                                               10
RECOMMENDATIONS

We recommend the Director, DSC:

(1) Finalize interim examination guidance that addresses FACT Act provisions for which final
    rules and regulations have been issued or that are self-executing.

(2) Develop, in coordination with the joint-agency rulemaking committee, a more aggressive
    project management plan that will expedite the issuance of final rules and regulations for all
    FACT Act provisions.


CORPORATION COMMENTS AND OIG EVALUATION

On February 15, 2006, the Acting Director, DSC, provided a written response to the draft report.
The response is presented in its entirety in Appendix V of this report. DSC concurred with the
intent of both recommendations.

Regarding recommendation 1, the written response states that DSC is in the process of
developing and issuing examination guidance that addresses FACT Act provisions for which
final rules and regulations have been issued or that are self-executing. For areas covered by
compliance examinations, procedures that include the self-executing FACT Act provisions have
been approved by the FFIEC Consumer Compliance Task Force and are being formally
distributed to both examiners and the industry through an RDM and a FIL.

For recommendation 2, DSC stated that the FDIC is actively participating in and is committed to
expediting the process to issue final rules and regulations for all FACT Act provisions. DSC is
committed to expediting the interagency process and, as a member of the separate working groups
responsible for drafting each set of rules or guidelines, the FDIC has consistently made efforts to
move the process forward and will continue to promote expedited processes during 2006.

OIG Evaluation: Management’s planned actions are responsive to the recommendations. The
recommendations are resolved but will remain open until we have determined that the agreed-to
corrective actions have been completed and are effective. Appendix VI contains a summary of
management’s response to the recommendations and the status of the recommendations as of the
date of this report. Also, on February 21, 2006, the FDIC issued final financial institution and
examiner guidance related to the self-executing provision of the FACT Act. We will review the
guidance to assess whether it addresses our recommendation.




                                                11
                                                                                APPENDIX I


                      OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of this audit was to determine whether DSC has:

¾ provided adequate institution and examination guidance for implementing the data privacy
  and security provisions of the GLBA Title V and the FACT Act; and
¾ implemented the recommendations contained in OIG Audit Report No. 03-044, The Federal
  Deposit Insurance Corporation’s Progress in Implementing the Gramm-Leach-Bliley Act,
  Title V - Privacy Provisions, dated September 26, 2003.

We performed our audit from September 2005 through December 2005 in accordance with
generally accepted government auditing standards.

Scope and Methodology

The scope of the audit included consumer privacy and data security requirements for FDIC-
supervised institutions enacted under GLBA Title V, FCRA, and the FACT Act since we issued
Audit Report No. 03-044 in September 2003. Details on that report are provided later in this
appendix. The objective of the 2003 audit was to determine whether DSC had made reasonable
progress in implementing Title V privacy provisions of the GLBA and had addressed both
Subtitle A – Disclosure of Nonpublic Personal Information and Subtitle B – Fraudulent Access
to Financial Information.

For the current audit, our assessment of the FDIC’s progress was based on an analysis of the
Corporation’s and DSC’s efforts to establish regulations, issue implementing guidelines to
financial institutions, and develop and implement procedures to examine financial institution
compliance with GLBA Title V, FCRA, and FACT Act provisions. In addition, we followed up
on the status of the recommendations in Audit Report No. 03-044.

Specifically, we:

¾ reviewed applicable laws and statutes related to consumer data privacy and security at FDIC-
  supervised institutions;
¾ reviewed applicable FDIC rules and regulations, DSC procedure manuals, RDMs and FILs,
  and DSC Internal Review reports; and
¾ interviewed key Legal Division personnel, DSC personnel, and senior management to obtain
  general information on privacy-related requirements and examinations.

We conducted our audit work at the FDIC’s Washington, D.C., Headquarters office.




                                              12
                                                                                               APPENDIX I


Compliance With Pertinent Laws and Regulations

This audit addressed both GLBA Title V and FACT Act Titles I, II, III, and IV related to the
protection and privacy of consumer information. The GLBA Title V provisions govern financial
institution treatment of consumers’ nonpublic personal information. The FACT Act amended
the FCRA and governs the content of consumer reports and restrictions on access. The Results
of Audit section of this report summarizes the FDIC’s compliance with the applicable GLBA and
FACT Act provisions, and details are provided in the findings.

Reliance on Computer-based Data, Government Performance and Results Act, Fraud and
Illegal Acts, and Internal Control

Validity and Reliability of Data from Computer-based Systems

During this audit, we did not rely on data from computer-based systems. Our assessment of the
FDIC’s efforts to establish regulations, issue implementing guidelines to financial institutions,
and develop and implement procedures to examine financial institutions’ compliance was based
on interviews with FDIC staff and reviews of applicable documents.

Performance Measures

In fulfilling its primary supervisory responsibilities, the FDIC pursues two strategic goals:

¾ FDIC-supervised institutions are safe and sound, and
¾ FDIC-supervised institutions invest in their communities,11 and consumers’ rights are
  protected.

Two strategic objectives support the consumer rights strategic goal. The first strategic objective
is that consumers have access to easily understood information about their rights and the
disclosures due them under consumer protection and fair lending laws.12 The FDIC’s annual
performance goals related to this objective are:

¾ Provide effective outreach and technical assistance on topics related to the CRA, fair lending,
  and community development.
¾ Meet the statutory mandate to investigate and respond to consumer complaints about FDIC-
  supervised financial institutions.

The second strategic objective is that FDIC-supervised institutions comply with consumer
protection, CRA, and fair lending laws. The FDIC’s annual performance goals related to this
objective follow.


11
  The goals are stated in the FDIC 2005-2010 Strategic Plan and the FDIC 2005 Annual Performance Plan.
12
  The FDIC periodically publishes Consumer Alerts on its Web site to provide consumers information on emerging
and continuing issues, including fraudulent efforts to obtain consumer information and on new laws that provide
consumers with new opportunities or protections. The most recent Consumer Alerts topics include phishing scams,
identity theft, and the Check Clearing for the 21st Century Act, FACT Act, and GLBA.


                                                      13
                                                                                     APPENDIX I


¾ Conduct CRA and compliance examinations in accordance with the FDIC’s examination
  frequency policy.

¾ Take prompt and effective supervisory action to monitor and address problems identified
  during compliance examinations of FDIC-supervised institutions that receive a 4 or 5 rating
  for compliance with consumer protection and fair lending laws.

We limited our scope to the issuance of regulations and guidance related to the GLBA and FACT
Act and did not review DSC’s examination assessment of compliance.

Fraud and Illegal Acts

The objective of this audit did not lend itself to specific steps for providing reasonable assurance
of detecting fraud or illegal acts. Although we were alert to the potential for such activity, we
did not identify any illegal acts or abuse or potential areas susceptible to illegal acts or abuse.

Internal Controls Reviewed

During the audit, we reviewed DSC’s guidance related to compliance and IT examinations at
FDIC-supervised institutions. For compliance examinations, we also identified the systems used
for measuring and monitoring program performance and compliance with laws and regulations
and policies and procedures. We reviewed this information to gain an understanding of the
applicable control environment.

Summary of Prior Audit Coverage

On September 23, 2005, the OIG issued Audit Report No. 05-038, Division of Supervision and
Consumer Protection’s Risk-focused Compliance Examination Process. The overall objective of
this audit was to determine whether DSC’s risk-focused compliance examination process results
in examinations that are adequately planned and effective in assessing financial institution
compliance with consumer protection laws and regulations. Specifically, we determined whether
DSC examiners were adequately risk-scoping compliance examinations and conducting
appropriate levels of transaction testing and making sound risk-scoping decisions when relying
on the work of the financial institutions’ internal or external compliance review functions. We
found that DSC examiners generally complied with the policies and procedures related to risk-
scoping compliance examinations and that the Risk Profile and Scoping Memorandums prepared
by examiners provided an adequate basis for planned examination coverage. However, we found
that examination documentation did not always show the transaction testing or spot checks
conducted during the on-site portion of the examinations, including testing to ensure the
reliability of the institutions’ compliance review functions. Examiners also did not always
document whether the examination reviewed all the compliance areas in the planned scope of
review. The report recommended that DSC clarify and reinforce requirements that examiners
adequately document the scope of the work performed, including transaction testing and spot
checks of the reliability of the institutions’ compliance review functions, during the on-site
portions of compliance examinations. DSC management agreed with the recommendation and
has taken corrective action.



                                                 14
                                                                                  APPENDIX I


On June 15, 2004, the OIG issued Audit Report No. 04-022, FDIC’s Information Technology
Examination Program. The objective of this audit was to determine whether the FDIC’s IT
examinations provide reasonable assurance that IT risks are being addressed by the risk
management programs in FDIC-supervised financial institutions. We concluded that the FDIC’s
IT examination program provides reasonable assurance that IT risks are being addressed by risk
management programs in FDIC-supervised financial institutions. We did, however, identify
opportunities for improving the quality of the IT examination process. Specifically, DSC did not
have a review process in place to determine whether appropriate examination procedures are
applied and that findings and conclusions are adequately supported. DSC has a quality review
process in place for its safety and soundness examinations but generally had not conducted
similar quality reviews for IT examinations. We recommended that DSC institute a standardized
quality review of all phases of the IT examination process and supporting documentation prior to
issuance of IT examination results. DSC’s comments on the audit report were responsive, and
DSC’s proposed actions were sufficient to resolve each recommendation.

On September 26, 2003, the OIG issued Audit Report No. 03-044, The Federal Deposit
Insurance Corporation’s Progress in Implementing the Gramm-Leach-Bliley Act, Title V -
Privacy Provisions. Overall, we found that the FDIC had made reasonable progress in
implementing GLBA Title V provisions related to safeguarding consumer information and
privacy notice requirements and modest progress in implementing provisions related to
fraudulent access to financial information. As a result, we recommended that DSC (1) identify
specific procedures in its examination work programs for examiners to assess the financial
institutions’ compliance with guidance on protecting consumer information against identity theft;
(2) identify the specific procedures in the IT General Work Program that are designed to assess
compliance with the safeguarding standards; and (3) standardize guidance related to reporting the
results of evaluating a financial institution’s compliance with the standards for safeguarding
consumer information. DSC’s comments on the report were responsive, and DSC’s proposed
actions were sufficient to resolve each recommendation.

To date, there have been no OIG audits conducted that relate specifically to the FCRA or the
FACT Act.




                                               15
                                                                                                    APPENDIX II


                            SUMMARY OF LAWS AND REGULATIONS

Gramm-Leach-Bliley Act of 1999 (GLBA)

The GLBA requires federal regulators to issue rules to financial institutions, establishing
standards for ensuring the security and privacy of consumer information. The GLBA Title V,
Privacy, includes two subtitles – A and B. Subtitle A provides a mechanism to protect the
confidentiality of a consumer’s nonpublic personal information. Subtitle B prohibits “pretext
calling,” which is a deceptive practice used to obtain information on the financial assets of
consumers. Criminal penalties and regulatory and administrative enforcement mechanisms were
established to help prevent this practice. Title V of GLBA also requires agencies to strengthen
prohibitions on identity theft and requires a federal study on information sharing among financial
institutions and their affiliates.13 Included are prohibitions on disclosing consumer account
numbers to nonaffiliated third parties for use in telemarketing, direct mail marketing, or other
marketing through electronic mail.

On June 1, 2000, the four federal bank and thrift regulators published substantively identical
regulations that implemented provisions of the GLBA governing the privacy of consumer
financial information. The FDIC established Part 332, Privacy of Consumer Financial
Information,14 which establishes the duties of a financial institution to provide particular notices
and limitations on its disclosure of nonpublic personal information. Furthermore, each
institution must provide notices of its privacy policies to its customers. Under this regulation,
financial institutions are required to disclose, initially when a customer relationship is established
and annually, thereafter, their privacy policies, including policies on sharing information with
affiliates and nonaffiliated third parties. The privacy regulations became effective on
November 13, 2000. Compliance was required as of July 1, 2001.

Fair Credit Reporting Act of 1968 (FCRA)

The FCRA establishes standards for the collection and permissible purposes for dissemination of
data by CRAs. The primary purpose of the FCRA is to regulate the nationwide consumer
reporting system to help ensure the accuracy and security of consumer reports. The FCRA
contains substantive requirements for CRAs. The requirements can be applicable to banks that
engage in information-sharing practices that constitute the communication of consumer reports.
Specifically, the FCRA prescribes standards that address information collected by businesses that
provide information used to determine consumer eligibility for credit, insurance, or employment.
FCRA imposes requirements for accuracy, limits purposes for which such information may be
disseminated, allows certain rights for consumer access, and includes civil and criminal penalties
for its violations.



13
   Under Subtitle A, the term “affiliate” means any company that controls, is controlled by, or is under common
control with another company.
14
   Part 332 applies to financial institutions for which the FDIC has primary supervisory authority, including state-
charted institutions that are not members of the Federal Reserve System, insured state branches of foreign banks,
and certain subsidiaries of such entities.


                                                          16
                                                                                   APPENDIX II


The FCRA was amended in 1996 to allow financial institutions to share information other than
their own transactions and experiences, but only with their affiliates. The GLBA made
additional changes, including provisions removing the prohibition against conducting routine
FCRA examinations and permitting regulations to be adopted to implement FCRA requirements.
The purposes of the FCRA, as amended, include the following:

¾   to regulate aspects of the consumer reporting industry,
¾   to place disclosure obligations on users of consumer reports,
¾   to establish requirements applicable to the furnishing of information to CRAs, and
¾   to require timely responses to consumer inquiries regarding information maintained by
    CRAs.

The FCRA was amended again in 2003 by the FACT Act, which created many new
responsibilities designed to address the growing problem of identity theft.

Fair and Accurate Credit Transactions Act of 2003 (FACT Act)

The FACT Act preserves uniform national standards for the content of consumer report
information and consumer access to such information and restricts the use and disclosure of
sensitive medical information. The FACT Act provisions apply primarily to banks and CRAs.
Some of the FACT Act provisions contain deadlines for establishing regulations, while others do
not. In addition, the FACT Act contains a number of self-executing provisions that require bank
compliance. The first three sections of the FACT Act address the title of the act, definitions, and
effective dates. The remainder of the FACT Act contains the following titles:

¾ Title I: Identity Theft Prevention and Credit History Restoration – focuses on the
  responsibilities of institutions and CRAs to prevent identity theft and to help consumers
  remedy the effects when such a theft occurs.
¾ Title II: Improvements in Use of and Consumer Access to Credit Information – creates new
  rights for consumers with regard to accessing and limiting the use of their personal
  information.
¾ Title III: Enhancing the Accuracy of Consumer Report Information – addresses the issue of
  inaccurate credit reports, with main requirements addressing improvements in the reporting
  process as well as new disclosures designed to help consumers understand the role of their
  credit scores in underwriting and pricing decisions.
¾ Title IV: Limiting the Use and Sharing of Medical Information in the Financial System –
  prohibits banks from obtaining or using medical information about a consumer for
  determining eligibility for credit.
¾ Title V: Financial Literacy and Education Improvement – requires that several federal
  government agencies, including the federal banking agencies, form a financial literacy
  commission charged with developing and implementing strategies for improving financial
  literacy among the American public.
¾ Title VI: Protecting Employee Misconduct Investigations – requires that certain
  communications from employee investigations be excluded from the definition of consumer
  reports.




                                                17
                                                                                      APPENDIX II


¾ Title VII: Relation to State Laws – addresses the FACT Act’s impact on state laws.
¾ Title VIII: Miscellaneous – addresses clerical amendments to the FACT Act.

The FACT Act contains new responsibilities for CRAs, financial institutions, and other users of
consumer reports and provides many new consumer rights and protections. The FDIC and other
federal agencies are responsible for implementing rules and conducting studies in regard to these
issues. These issues impact both the compliance and risk management aspects of a financial
institution’s operations.

Two new restrictions under the FACT Act deal directly with consumer information privacy and
financial institutions. First, pursuant to Title IV, Section 411, creditors are prohibited in general
from obtaining or using a consumer’s medical information in connection with any determination
of the consumer’s eligibility or continued eligibility for credit. The effective date for
Section 411 is June 3, 2004. On November 8, 2005, the FDIC’s Board of Directors voted to
adopt a final rule on this provision effective April 1, 2006.

The second new restriction addresses the use of information obtained from affiliates. Title II of
the FACT Act prohibits an entity from using information obtained from an affiliate to market its
products or services, unless the consumer is given the opportunity to opt out first. This
prohibition does not impact a bank’s ability to share information; rather, the restriction limits the
affiliates’ use of the information. Title II, Section 214, requires that regulations be issued in final
form by September 4, 2004, with an effective date of March 4, 2005. The FDIC issued a
proposed regulation on July 15, 2004.




                                                  18
                                                                                         APPENDIX III


                           VARIOUS FDIC ISSUANCES RELATED TO
                                GLBA AND THE FACT ACT


                                    GRAMM-LEACH–BLILEY ACT

DOCUMENT
                                               TITLE                                           DATE
  NUMBER
FIL-83-2003      FFEIC Information Technology Examination Handbook: New                 October 27, 2003
                 Guidance for Examiners, Financial Institutions and Technology
                 Service Providers on Electronic Banking, Information Technology
                 (IT) Audits, and the FedLine Electronic Funds Transfer Application
RDM-2004-002     Report Treatment of Compliance with the Interagency Guidelines         January 29, 2004
                 Establishing Standards for Safeguarding Consumer Information
FIL-27-2004      Guidance on Safeguarding Consumers Against E-Mail and Internet-        March 12, 2004
                 Related Fraudulent Schemes
FIL-84-2004      Guidance on Instant Messaging: Guidance on the Risks Associated        July 21, 2004
                 with Instant Messaging
FIL-103-2004     Internet Banking Fraud: Interagency Informational Brochure on          September 13, 2004
                 Internet “Phishing” Scams
FIL-132-2004     Identify Theft: Study on “Account-Hijacking” Identity Theft and        December 14, 2004
                 Suggestions for Reducing Online Fraud
FIL-59-2005      Identity Theft Study Supplement on “Account-Hijacking” Identity        July 5, 2005
                 Theft
FIL-64-2005      “Pharming”: Guidance on How Financial Institutions Can Protect         July 18, 2005
                 Against Pharming Attacks
FIL-66-2005      Spyware Guidance on Mitigating Risks From Spyware                      July 22, 2005
FIL-103-2005     FFEIC Guidance: Authentication in an Internet Banking                  October 12, 2005
                 Environment
Press Release    Federal Bank and Thrift Regulatory Agencies Publish Guide to Help      December 14, 2005
127-2005         Financial Institutions Comply with Information Security Guidelines

                      FAIR AND ACCURATE CREDIT TRANSACTIONS ACT

DOCUMENT
                                               TITLE                                           DATE
  NUMBER
FIL-47-2004      Medical Privacy Regulations Under the Fair and Accurate Credit         April 28, 2004
                 Transactions Act of 2003: Notice of Proposed Rulemaking
                 Regarding Medical Privacy (Part 334 of the FDIC’s Rules and
                 Regulations)
FIL-73-2004      Disposal of Consumer Information: Notice of Proposed Rulemaking        June 17, 2004
                 on Disposal of Consumer Information
FIL-82-2004      Affiliate Marketing Opt Out Regulations: Notice of Proposed            July 15, 2004
                 Rulemaking Regarding Affiliate Marketing Opt Outs (Part 334 of the
                 FDIC’s Rules and Regulations)
RDM-2004-055     Fair and Accurate Credit Transactions Act of 2003 – Effective Dates    November 29, 2004
FIL-130-2004     Fair and Accurate Credit Transactions Act Effective Dates              December 13, 2004
      Source: FDIC Legal Division’s FACT Act Status Report and various FILs and RDMs.




                                                    19
                                                                                                                          APPENDIX IV


                                        CROSSWALK OF FACT ACT PROVISIONS
                              TO FDIC RULES AND REGULATIONS AND RELATED GUIDANCE

FACT Act Section                                                                        Financial Institution Letters (FIL) and/or
  Number and                     FDIC Rules and Regulations                                  DSC Examination Procedures
   Heading                                                                                   (OIG Comments Are in Bold)
Section 1: Short Title and Table of Contents

Section 2: Definitions

Section 3: Effective Dates

                         TITLE I – IDENTITY THEFT PREVENTION AND CREDIT HISTORY RESTORATION
Subtitle A – Identity Theft Prevention
111. Amendment to Definitions
Section 111        The FDIC is not required to issue regulations. The Federal Amends Section 603 of FCRA (re: definitions) by adding
                   Trade Commission (FTC) may issue regulations to define definitions to include, but not limited to “fraud alert,” “identity
                   “identity theft.”                                          theft,” “identity theft report,” and “federal banking agency.”

112. Fraud Alerts and Active Duty Alerts
Section 112        The FDIC is not required to issue regulations. FTC issued RDM-2004-055, Fair and Accurate Credit Transactions Act of
                   regulations on November 3, 2004.                          2003-Effective Dates, dated November 29, 2004, reiterates the
                                                                             requirements of this provision and includes a procedure to be
                                                                             performed in compliance examinations beginning after
                                                                             December 1, 2004.

                                                                             FIL-130-2004, Fair and Accurate Credit Transactions Act Effective
                                                                             Dates, dated December 13, 2004, provides an effective date of
                                                                             December 1, 2004 for this self-executing provision.




                                                                     20
                                                                                                                             APPENDIX IV


FACT Act Section                                                                         Financial Institution Letters (FIL) and/or
  Number and                     FDIC Rules and Regulations                                   DSC Examination Procedures
   Heading                                                                                    (OIG Comments Are in Bold)
113. Truncation of Credit and Debit Card Account Numbers
Section 113        The FDIC is not required to issue regulations.            Amends FCRA Section 605 by adding Subsection (g), which
                                                                             includes effective-date provisions.

                                                                             RDM-2004-055, Fair and Accurate Credit Transactions Act of
                                                                             2003-Effective Dates, dated November 29, 2004, reiterates the
                                                                             requirements of this provision and includes procedures to be
                                                                             performed in compliance examinations beginning after
                                                                             December 1, 2004. The RDM also provides additional effective
                                                                             dates for Automated Teller Machines and Point of Sale terminals.

114. Procedures for Identification of Possible Instances of Identity Theft
Section 114        The federal banking regulators, National Credit Union     Amends FCRA Section 615 by replacing Subsection (e).
                   Administration (NCUA), and FTC are required to issue      Regulations are to address financial institutions, creditors,
                   regulations jointly. There is no statutory due date for   and/or card issuers.
                   issuing regulations.
                                                                             RDM-04-055, Fair and Accurate Credit Transactions Act of 2003-
                                                                             Effective Dates, dated November 29, 2004, reiterates the
                                                                             requirements of this provision and states that this provision will be
                                                                             reviewed during IT examinations once final regulations are issued.

                                                                             FIL-130-2004, Fair and Accurate Credit Transactions Act Effective
                                                                             Dates, dated December 13, 2004, states that the effective date for
                                                                             this provision will be set forth in the final rule.

115. Authority to Truncate Social Security Numbers
Section 115        The FDIC is not required to issue regulations.            Amends FCRA Section 609(a)(1) by adding additional language
                                                                             thereto.




                                                                      21
                                                                                                                            APPENDIX IV


FACT Act Section                                                                          Financial Institution Letters (FIL) and/or
  Number and                     FDIC Rules and Regulations                                    DSC Examination Procedures
   Heading                                                                                     (OIG Comments Are in Bold)

Subtitle B – Protection and Restoration of Identity Theft Victim Credit History
151. Summary of Rights of Identity Theft Victims
Section 151        FTC, in consultation with the federal banking agencies,     Amends FCRA Section 609 by adding Subsections (d) and (e),
                   shall prepare a model summary of rights for fraud and       which contain detailed provisions regarding victims of identity
                   identity theft victims. Final rule codified at 16 C.F.R.    theft. Section 609(d) requires FTC, in consultation with the
                   Part 698; 69 FR 69776 (November 30, 2004).                  federal banking agencies, to prepare a model summary of
                                                                               rights for fraud and identity theft victims. Financial
                   Also contains a self-executing provision that requires,     institutions are required to distribute a summary of rights to
                   within 30 days after receiving a request from an identity   identity theft victims. Section 609(e) is a self-executing
                   theft victim, a business entity that has entered into a     provision that requires, within 30 days after receiving a request
                   commercial transaction with a person, who has allegedly     from an identity theft victim, a business entity that has entered
                   made unauthorized use of the means of identification of a   into a commercial transaction with a person, who has allegedly
                   victim, shall provide a copy of the application and         made unauthorized use of the means of identification of a
                   transaction records to: the victim, federal/state/local     victim, shall provide a copy of the application and transaction
                   authorities, or any law enforcement agency investigating    records to: the victim, federal/state/local authorities, or any
                   the identity theft and authorized by the victim to take     law enforcement agency investigating the identity theft and
                   receipt of the records.                                     authorized by the victim to take receipt of the records. FCRA
                                                                               Section 609(e) (9)(A) has reference to GLBA’s privacy
                                                                               provisions Subtitle A of Title V; and Section 609(e)(9)(B)
                                                                               addresses law enforcement.

                                                                               RDM-2004-055, Fair and Accurate Credit Transactions Act of
                                                                               2003-Effective Dates, dated November 29, 2004, reiterates the
                                                                               requirements of this provision and includes procedures to be
                                                                               performed in compliance examinations beginning after
                                                                               December 1, 2004 for the portion of this provision that was
                                                                               effective June 4, 2004, which did not require the issuance of
                                                                               regulations (self-executing).




                                                                       22
                                                                                                                                 APPENDIX IV


FACT Act Section                                                                             Financial Institution Letters (FIL) and/or
  Number and                      FDIC Rules and Regulations                                      DSC Examination Procedures
   Heading                                                                                        (OIG Comments Are in Bold)
152. Blocking of Information Resulting From Identity Theft
Section 152         The FDIC is not required to issue regulations. The FTC       Adds Section 605B entitled, Block of Information Resulting from
                    issued regulations on November 3, 2004.                      Identity Theft, to FCRA. FACT Act Section 112(b) requires
                                                                                 FTC to issue regulations on what constitutes “appropriate
                                                                                 proof of identity” for purposes of FCRA Sections 605A, 605B,
                                                                                 and 609(a)(1).

                                                                                 FIL-130-2004, Fair and Accurate Credit Transactions Act Effective
                                                                                 Dates, dated December 13, 2004, provides an effective date of
                                                                                 December 1, 2004 for this provision.

153. Coordination of Identity Theft Complaint Investigations
Section 153        The FTC published a Notice of FTC Publication in              Amends FCRA Section 621 by adding Subsection (f).
                   70 Federal Register 21792 (April 27, 2005). Notice is
                   effective as of May 2, 2005. The FTC, in consultation         RDM-2004-055, Fair and Accurate Credit Transactions Act of
                   with the federal banking agencies, shall develop a model      2003-Effective Dates, dated November 29, 2004, reiterates the
                   form and procedures to be used by victims of identity theft   requirements of this provision and states that it will be reviewed
                   to contact and inform creditors and consumer reporting        during IT examinations once final regulations are issued.
                   agencies.
154. Prevention of Repollution of Consumer Reports
Section 154         The FDIC is not required to issue regulations.               FACT Act Section 154(a) amends FCRA Section 623(a) by
                                                                                 adding paragraph (6), which applies to persons furnishing
                                                                                 information to credit reporting agencies. FACT Act Section
                                                                                 154(b) amends FCRA Section 615 by adding Subsection (f),
                                                                                 which pertains to persons who sell, transfer, or place for
                                                                                 collection debts after being notified of identity theft.

                                                                                 RDM-2004-055, Fair and Accurate Credit Transactions Act of
                                                                                 2003-Effective Dates, dated November 29, 2004, reiterates the
                                                                                 requirements of this provision and includes a procedure to be
                                                                                 performed in compliance examinations beginning after
                                                                                 December 1, 2004.


                                                                       23
                                                                                                                            APPENDIX IV


FACT Act Section                                                                         Financial Institution Letters (FIL) and/or
  Number and                     FDIC Rules and Regulations                                   DSC Examination Procedures
   Heading                                                                                    (OIG Comments Are in Bold)
                                                                              FIL-130-2004, Fair and Accurate Credit Transactions Act Effective
                                                                              Dates, dated December 13, 2004, provides an effective date of
                                                                              December 1, 2004, for this self-executing provision.

155. Notice by Debt Collectors With Respect to Fraudulent Information
Section 155        The FDIC is not required to issue regulations.             Amends FCRA Section 615 by adding Subsection (g). Applies
                                                                              to debt collectors acting on behalf of creditors or other users of
                                                                              a consumer report.

                                                                              RDM-2004-055, Fair and Accurate Credit Transactions Act of
                                                                              2003-Effective Dates, dated November 29, 2004, reiterates the
                                                                              requirements of this provision and includes a procedure to be
                                                                              performed in compliance examinations beginning after
                                                                              December 1, 2004.

156. Statute of Limitations
Section 156        The FDIC is not required to issue regulations.             Amends FCRA Section 618 by substituting revised language.

157. Study on the Use of Technology to Combat Identity Theft
Section 157        The FDIC is not required to issue regulations. The
                   Secretary of the Treasury is to consult with the federal
                   banking agencies on a study of technology used to combat
                   identity theft 180 days after enactment of the FACT Act.




                                                                     24
                                                                                                                                APPENDIX IV


FACT Act Section                                                                             Financial Institution Letters (FIL) and/or
  Number and                       FDIC Rules and Regulations                                     DSC Examination Procedures
   Heading                                                                                        (OIG Comments Are in Bold)
                 TITLE II – IMPROVEMENTS IN USE OF AND CONSUMER ACCESS TO CREDIT INFORMATION
211. Free Consumer Reports
Section 211        The FDIC is not required to issue regulations. The FTC is Amends FCRA Sections 609(c) and 612(a) and adds Section 629
                   required to issue regulations and a model summary of      entitled, Corporate and Technological Circumvention.
                   consumer rights.

212. Disclosure of Credit Scores
Section 212        The FDIC is not required to issue regulations.                 Amends FCRA Sections 605(d), 609(c), and 625(b) and adds
                                                                                  Subsections 609(f) and (g). The latter provision applies to
                                                                                  mortgage lenders who use consumer credit reports. These
                                                                                  lenders are required to provide a notice to loan applicants
                                                                                  regarding credit scores.

                                                                                  RDM-2004-055, Fair and Accurate Credit Transactions Act of
                                                                                  2003-Effective Dates, dated November 29, 2004, reiterates the
                                                                                  requirements of this provision and includes a procedure to be
                                                                                  performed in compliance examinations beginning after
                                                                                  December 1, 2004.

                                                                                  FIL-130-2004, Fair and Accurate Credit Transactions Act Effective
                                                                                  Dates, dated December 13, 2004, provides an effective date of
                                                                                  December 1, 2004 for this self-executing provision.

213. Enhanced Disclosure of the Means Available to Opt Out of Prescreened Lists
Section 213        FTC to consult with federal banking agencies and NCUA          Amends FCRA Section 615(d)(2). Section 213(d) requires FTC
                   to issue regulations on the format of notices for opting out   to wage public awareness campaign on the issue of opting out.
                   of prescreened lists. Final rule at 70 Federal Register
                   5022 (January 31, 2005). Final rule sets an effective date     RDM-2004-055, Fair and Accurate Credit Transactions Act of
                   of August 1, 2005.                                             2003-Effective Dates, dated November 29, 2004, reiterates the
                                                                                  requirements of this provision and states that it will be reviewed
                                                                                  during compliance examinations once final regulations are issued.


                                                                        25
                                                                                                                                APPENDIX IV


FACT Act Section                                                                             Financial Institution Letters (FIL) and/or
  Number and                      FDIC Rules and Regulations                                      DSC Examination Procedures
   Heading                                                                                        (OIG Comments Are in Bold)
214. Affiliate Marketing
Section 214(a)     The federal banking agencies, NCUA, and FTC (with              FACT Section 214(a) redesignates certain existing FCRA
Special Rule for   respect to the entities that are subject to their respective   Sections and adds a new Section 624, to FCRA. Section 624
Solicitation for   enforcement) and the Securities and Exchange                   deals with a limitation on affiliates’ marketing efforts based on
Purposes of        Commission (SEC) were required to issue final regulations      credit-report-type information shared by another affiliate and
Marketing          no later than September 4, 2004, with an effective date no     includes notice requirements to the consumer.
                   later than 6 months after issuance of the final regulations.
                   Each agency was required to consult and coordinate with        FIL-82-2004, Affiliate Marketing Opt Out Regulations, dated
                   each other to the extent possible to ensure the regulations    July 15, 2004, includes proposed rules and solicits comments from
                   each agency issued are consistent and comparable. A            financial institutions that were due by August 16, 2004.
                   proposed regulation was issued July 15, 2004.
                                                                                  RDM-2004-055, Fair and Accurate Credit Transactions Act of
                                                                                  2003-Effective Dates, dated November 29, 2004, reiterates the
                                                                                  requirements of this provision and states that it will be reviewed
                                                                                  during compliance examinations once final regulations are issued.
                                                                                  The RDM also states that this provision will be effective within
                                                                                  6 months after final regulations are issued.

Section 214(e)     The federal banking agencies, NCUA, and FTC are                FACT Act Section 214(e) sets forth requirements for the
Studies of         required to jointly conduct studies and initially report the   federal banking agencies, NCUA, and FTC to conduct regular
Information        results and any recommendations for legislative or             joint studies of consumer information-sharing practices of
Practices          regulatory action to the Congress by December 4, 2006.         financial institutions.
                   Follow-up reports are required at least once every 3 years
                   thereafter.

215. Study of Effects of Credit Scores and Credit-Based Insurance Scores on Availability and Affordability of Financial Products
Section 215        The FDIC is not required to issue regulations. The Federal
                   Reserve Board and FTC are required to consult with the
                   Office of Fair Housing and Equal Opportunity to conduct a
                   study and shall include input from relevant federal
                   regulators.



                                                                         26
                                                                                                                                APPENDIX IV


FACT Act Section                                                                            Financial Institution Letters (FIL) and/or
  Number and                     FDIC Rules and Regulations                                      DSC Examination Procedures
   Heading                                                                                       (OIG Comments Are in Bold)
216. Disposal of Consumer Report Information and Records
Section 216        Final rules codified at 12 C.F.R. Part 334.83 and 364.101. The FACT Act adds Section 628 entitled, Disposal of Records,
                   Final regulation was published December 28, 2004 and       to FCRA. This Section requires persons who maintain
                   became effective on July 1, 2005.                          consumer information to dispose of that information properly.

                                                                                FIL-73-2004, Disposal of Consumer Information: Notice of
                                                                                Proposed Rulemaking on Disposal of Consumer Information, dated
                                                                                June 17, 2004, includes the proposed requirements and solicits
                                                                                comments from financial institutions.

                                                                                RDM-2004-055, Fair and Accurate Credit Transactions Act of
                                                                                2003-Effective Dates, dated November 29, 2004, reiterates the
                                                                                requirements of this provision and states that it will be reviewed
                                                                                during IT examinations after final regulations are issued.

                                                                                FIL-130-2004, Fair and Accurate Credit Transactions Act Effective
                                                                                Dates, dated December 13, 2004, states that the effective date for
                                                                                this provision will be set forth in the final rule.

                                                                                FIL-7-2005, Fair and Accurate Credit Transactions Act of 2003
                                                                                Guidelines Requiring the Proper Disposal of Consumer
                                                                                Information, dated February 2, 2005, includes the requirements for
                                                                                financial institutions in ensuring compliance with the final rule.

217. Model Disclosure for Furnishing Negative Information
Section 217        The Federal Reserve is to issue a model disclosure that a    Amends FCRA Section 623(a) by adding new paragraph (7).
                   financial institution may use to notify a consumer that it   Requires certain financial institutions that provide negative
                   has furnished negative information to credit reporting       information about a consumer to a CRA to furnish a notice to
                   agencies. Final rule codified at 12 C.F.R. Part 222;         the consumer.
                   69 Federal Register 33281 (June 15, 2004).
                                                                                RDM-2004-055, Fair and Accurate Credit Transactions Act of
                                                                                2003-Effective Dates, dated November 29, 2004, reiterates the


                                                                        27
                                                                                                                                 APPENDIX IV


FACT Act Section                                                                             Financial Institution Letters (FIL) and/or
  Number and                      FDIC Rules and Regulations                                      DSC Examination Procedures
   Heading                                                                                        (OIG Comments Are in Bold)
                                                                                 requirements of this provision and includes procedures to be
                                                                                 performed in compliance examinations beginning after
                                                                                 December 1, 2004.

                      TITLE III – ENHANCING THE ACCURACY OF CONSUMER REPORT INFORMATION
311. Risk Based Pricing Notice
Section 311        The FDIC is not required to issue regulations.                Amends FCRA Section 615 by adding Subsection (h) requiring
                                                                                 any person that uses a consumer report in granting credit on
                                                                                 “material terms that are materially less favorable than the most
                                                                                 favorable terms available to a substantial portion of [certain]
                                                                                 consumers” to provide an oral, written, or electronic notice to
                                                                                 the consumer in the form required by the regulations.

                                                                                 RDM-2004-055, Fair and Accurate Credit Transactions Act of
                                                                                 2003-Effective Dates, dated November 29, 2004, reiterates the
                                                                                 requirements of this provision and states that this provision will be
                                                                                 reviewed during compliance examinations once final regulations
                                                                                 are issued.

                                                                                 FIL-130-2004, Fair and Accurate Credit Transactions Act Effective
                                                                                 Dates, dated December 13, 2004, states that this provision becomes
                                                                                 effective December 1, 2004, but the parameters for and date of
                                                                                 compliance will be established in the final rule.

312. Procedures to Enhance the Accuracy and Integrity of Information Furnished to Consumer Reporting Agencies
Section 312(a)     There is no statutory due date for issuance of final          RDM-2004-055, Fair and Accurate Credit Transactions Act of
Accuracy           regulations. The federal banking agencies, NCUA, and          2003-Effective Dates, dated November 29, 2004, reiterates the
Guidelines and     FTC, with respect to the entities that are subject to their   requirements of this provision and states that it will be reviewed
Regulations        respective enforcement, are required to issue guidelines      during compliance examinations once final regulations are issued.
                   and regulations regarding the accuracy and integrity of
                   information provided to consumer reporting agencies.


                                                                          28
                                                                                                                               APPENDIX IV


FACT Act Section                                                                            Financial Institution Letters (FIL) and/or
  Number and                     FDIC Rules and Regulations                                      DSC Examination Procedures
   Heading                                                                                       (OIG Comments Are in Bold)
                   Each agency was required to consult and coordinate with       FIL-130-2004, Fair and Accurate Credit Transactions Act Effective
                   each other to the extent possible to ensure the regulations   Dates, dated December 13, 2004, states that the effective date for
                   issued by each are consistent and comparable.                 this provision will be set forth in the final rule.

Section 312(c)     There is no statutory due date for issuance of final          RDM-2004-055, Fair and Accurate Credit Transactions Act of
Ability of         regulations. The federal banking agencies, NCUA, and          2003-Effective Dates, dated November 29, 2004, reiterates the
Consumer to        FTC are required to jointly issue regulations regarding       requirements of this provision and states that it will be reviewed
Dispute            reinvestigations of disputes concerning the accuracy of       during compliance examinations after final regulations are issued.
Information        consumer-report information.
Directly With                                                                    FIL-130-2004, Fair and Accurate Credit Transactions Act Effective
Furnisher                                                                        Dates, dated December 13, 2004, states that the effective date for
                                                                                 this provision will be set forth in the final rule.

313. FTC and Consumer Reporting Agency Action Concerning Complaints
Section 313        The FDIC is not required to issue regulations. The FTC        FACT Act 313(a) amends FCRA 611 by adding Subsection (e),
                   and Federal Reserve Board are to jointly study how            which requires the FTC to compile complaints related to
                   consumer agency and furnishers of information to credit       inaccurate or incomplete information.
                   reporting agencies are complying with requirements
                   related to disputed information. The progress report was
                   due 1 year after the FACT Act’s enactment.

314. Improved Disclosure of the Results of Reinvestigation
Section 314        The FDIC is not required to issue regulations.                RDM-2004-055, Fair and Accurate Credit Transactions Act of
                                                                                 2003-Effective Dates, dated November 29, 2004, reiterates the
                                                                                 requirements of this provision and includes procedures to be
                                                                                 performed in compliance examinations beginning after
                                                                                 December 1, 2004.




                                                                        29
                                                                                                                              APPENDIX IV


FACT Act Section                                                                          Financial Institution Letters (FIL) and/or
  Number and                     FDIC Rules and Regulations                                    DSC Examination Procedures
   Heading                                                                                     (OIG Comments Are in Bold)
315. Reconciling Addresses
Section 315        The federal banking regulators, NCUA, and FTC are to       Amends FCRA Section 605 by adding Subsection (h) regarding
                   jointly issue regulations providing guidance regarding     the need for a CRA to notify a consumer about a discrepancy in
                   policies and procedures that a user of a consumer report   the consumer’s address in the CRAs’ files.
                   should employ when the user has received notice of a
                   discrepancy in a consumer’s address. The FACT Act does     RDM-2004-055, Fair and Accurate Credit Transactions Act of
                   not provide a statutory due date for issuance of the       2003-Effective Dates, dated November 29, 2004, reiterates the
                   regulations.                                               requirements of this provision and states that this provision will be
                                                                              reviewed during compliance examinations after final regulations
                                                                              are issued.

                                                                              FIL-130-2004, Fair and Accurate Credit Transactions Act Effective
                                                                              Dates, dated December 13, 2004, states that the effective date for
                                                                              this provision will be set forth in the final rule.

316. Notice of Dispute Through Reseller
Section 316        The FDIC is not required to issue regulations.

317. Reasonable Reinvestigations Required
Section 317        The FDIC is not required to issue regulations.             Amends FCRA Section 611(a)(1)(A) regarding reinvestigations.

318. FTC Study of Issues Relating to the Fair Credit Reporting Act
Section 318       The FDIC is not required to issue regulations. FTC is to
                  study ways to improve the operations of FCRA. The
                  report was due 1 year after the FACT Act’s enactment.

319. FTC Study of Accuracy of Consumer Reports
Section 319       The FDIC is not required to issue regulations. FTC is to
                  study the accuracy and completeness of information in
                  consumer reports prepared by CRAs. An interim report



                                                                     30
                                                                                                                            APPENDIX IV


FACT Act Section                                                                         Financial Institution Letters (FIL) and/or
  Number and                    FDIC Rules and Regulations                                    DSC Examination Procedures
   Heading                                                                                    (OIG Comments Are in Bold)
                   was due 1 year after the FACT Act’s enactment and every
                   2 years thereafter for 8 years. The final report is due
                   2 years after the last interim report.

          TITLE IV – LIMITING THE USE AND SHARING OF MEDICAL INFORMATION IN THE FINANCIAL SYSTEM
411. Protection of Medical Information in the Financial System
Section 411        Final rules codified at 12 C.F.R. Part 334 and published in FACT Act Section 411(a) amends FCRA Section 604(g) by
                   the Federal Register on November 22, 2005.                  placing limitations on CRAs and creditors with respect to the
                                                                               use of medical information about consumers and the
                                                                               redisclosure of that information by any person.

                                                                             FIL-47-2004, Medical Privacy Regulations Under the Fair and
                                                                             Accurate Credit Transactions Act of 2003, dated April 28, 2004,
                                                                             includes proposed rules and solicits comments from financial
                                                                             institutions that were due by May 28, 2004.

                                                                             RDM-2004-055, Fair and Accurate Credit Transactions Act of
                                                                             2003-Effective Dates, dated November 29, 2004, reiterates the
                                                                             requirements of this provision and includes procedures to be
                                                                             performed in compliance examinations beginning after
                                                                             December 1, 2004. The RDM also states that implementing rules
                                                                             defining exceptions will become effective after final regulations are
                                                                             issued.

                                                                             FIL-51-2005, Fair Credit Reporting Medical Information Interim
                                                                             Final Rules, dated June 16, 2005 includes interim final rules that
                                                                             will take effect on March 7, 2006, and solicits comments from
                                                                             financial institutions that were due by July 11, 2005.




                                                                     31
                                                                                                                       APPENDIX IV


FACT Act Section                                                                     Financial Institution Letters (FIL) and/or
  Number and                     FDIC Rules and Regulations                               DSC Examination Procedures
   Heading                                                                                (OIG Comments Are in Bold)
                                                                          FIL-121-2005, Fair Credit Reporting – Medical Information Final
                                                                          Rules, dated December 8, 2005, includes the final rules that will
                                                                          take effect on April 1, 2006.

412. Confidentiality of Medical Contact Information in Consumer Reports
Section 412        The FDIC is not required to issue regulations.

                                TITLE V – FINANCIAL LITERACY AND EDUCATION IMPROVEMENT
511. Short Title
Section 511        The FDIC is not required to issue regulations.

512. Definitions
Section 512        The FDIC is not required to issue regulations.

513. Establishment of Financial Literacy and Education Commission
Section 513        The FDIC is not required to issue regulations.

514. Duties of the Commission
Section 514        The FDIC is not required to issue regulations.

515. Powers of the Commission
Section 515        The FDIC is not required to issue regulations.

516. Commission Personal Matters
Section 516        The FDIC is not required to issue regulations.

517. Studies by the Comptroller General
Section 517        The FDIC is not required to issue regulations.



                                                                    32
                                                                                                                    APPENDIX IV


FACT Act Section                                                                   Financial Institution Letters (FIL) and/or
  Number and                     FDIC Rules and Regulations                             DSC Examination Procedures
   Heading                                                                              (OIG Comments Are in Bold)
518. The National Public Service Multimedia Campaign to Enhance the State of Financial Literacy
Section 518        The FDIC is not required to issue regulations.

519. Authorization of Appropriations
Section 519        The FDIC is not required to issue regulations.

                              TITLE VI – PROTECTING EMPLOYEE MISCONDUCT INVESTIGATIONS
611. Certain Employee Investigation Communications Excluded From Definition of Consumer Report
Section 611        The FDIC is not required to issue regulations.

                                                TITLE VII – RELATION TO STATE LAWS
711. Relation to State Laws
Section 711        The FDIC is not required to issue regulations.

                                                      TITLE VIII – MISCELLANEOUS
811. Clerical Amendments
Section 811        The FDIC is not required to issue regulations.




                                                                    33
Appendix V
                       APPENDIX V


CORPORATION COMMENTS




         35
                                                  MANAGEMENT RESPONSE TO RECOMMENDATIONS

     This table presents the management response on the recommendations in our report and the status of the recommendations as of the date
     of report issuance.
                                                                                                                                                          Open
      Rec.                                                                                      Expected              Monetary         Resolved:a          or
     Number                 Corrective Action: Taken or Planned/Status                       Completion Date          Benefits         Yes or No         Closedb
                    DSC concurred with the intent of the recommendation. DSC
            1       will issue examination guidance that addresses FACT Act
                    provisions for which final rules and regulations have been
                    issued or that are self-executing by year-end 2006. For areas
                    to be covered by compliance examinations, procedures that                December 31, 2006           None              Yes            Open
                    include the self-executing FACT Act provisions have been
                    approved by the FFIEC Consumer Compliance Task Force.
                    They are being formally distributed to both examiners and the
                    industry through an RDM and a FIL.
36




                    DSC concurred with the intent of the recommendation.
            2       According to DSC, the FDIC is actively participating in and
                    is committed to expediting the interagency process to issue
                    final rules and regulations for all FACT Act provisions. As              December 31, 2006           None              Yes            Open
                    a member of the separate working groups responsible for
                    drafting each set of rules or guidelines, the FDIC has
                    consistently made efforts to move the process forward and
                    will continue to promote expedited processes.
     a
         Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                   (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                   (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                       as management provides an amount.
     b
         Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.
